                       UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




REPLY TO
ATTN OF:      03703-1-Ch

TO:           Doug Caruso
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young
              Assistant Inspector General
               for Audit

SUBJECT:      Controls Over Aquaculture Grant Recovery Act Funds – Phase I


The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided $50 million to
administer the 2008 Aquaculture Grant Program (AGP) to assist aquaculture producers in
recovering from losses associated with high feed costs during the 2008 calendar year. Congress,
in enacting the Recovery Act, emphasized the need for accountability and transparency in the
expenditure of the funds. Further, on February 18, 2009, the Office of Management and Budget
(OMB) issued guidance that required Federal agencies to establish rigorous internal controls,
oversight mechanisms, and other approaches to meet the accountability objectives of the
Recovery Act.

Funding for AGP is provided by the Commodity Credit Corporation (CCC), a Federal
corporation within the Department of Agriculture. However, since CCC has no operating
personnel, administration of its programs and activities is carried out primarily by the Farm
Service Agency (FSA). Because the current AGP is a new program, and its governing
provisions are spelled out by the Recovery Act itself, the Office of the General Counsel ruled
that FSA can implement the program through a Notice of Funds Availability (NOFA) rather than
through the normal rulemaking process.

On April 27, 2009, we held an entrance conference with members of your staff and briefed them
on the objectives of our ongoing review. To accomplish our objectives, we are in the process of
assessing the program’s policies and procedures, as well as its internal controls. Although some
of the agency’s management controls and processes are carried forward from the previous
aquaculture program, others are being newly developed and implemented based on the
requirements and provisions of the Recovery Act. In order to better assist FSA officials in
Doug Caruso                                                                                          2


ensuring that AGP will fully comply with the oversight and accountability objectives of the
Recovery Act, we are providing comments on procedures and requirements that are still under
development.

As part of its NOFA, issued to each State on April 17, 2009, FSA provided a draft Memorandum
of Agreement (MOA) for review and comment. Once comments are received and the MOA is
finalized, it will constitute the primary guidance to the States and outline the requirements to be
followed when disbursing grant funds to eligible aquaculture producers. The MOA’s provisions
include: (a) eligibility of aquaculture producers to receive grant funds; (b) requirements for
collection of calendar year (CY) 2007 feed delivery data to be used in allocations of funds
among participating States; (c) payment limitations to aquaculture producers; and (d) reporting
requirements for participating States under the Recovery Act.

Because the finalized MOA will largely take the place of program regulations for AGP, we
believe it is critical that it include adequate provisions to ensure that participating States
implement the program in a consistent and equitable manner nationwide. Further, the MOA
needs to provide the States with sufficient guidance to ensure compliance with the requirements
of OMB and of the Recovery Act.

Although our review is still in its early stages and we have not yet visited any participating State,
an FSA official informed us that finalization of the MOA is imminent and that our comments on
it would need to be received quickly for consideration and possible incorporation into the MOA.
 Therefore, we are providing this memorandum suggesting modifications to the draft MOA.
This letter will be the first in a series that will report on our oversight activities during the initial
phase of this audit.

Based on our review of the draft MOA, we suggest the following additions and/or amendments:

    1. The cover letter transmitting the MOA to the State Governors specified that when
       providing data to FSA on aquaculture feed deliveries in CY 2007, they were to (a)
       include feed for all aquaculture species in the State that was delivered to an individual or
       entity that is still in operation in CY 2009 and (b) exclude feed deliveries to Federal or
       State-owned hatcheries. We suggest that these requirements be included in Section C,
       Determining Amount of Assistance, of the MOA. We believe this is needed because
       although the terms of the finalized and signed MOA are binding on the States, any terms
       contained only in the cover letter may not be.

    2. The feed delivery data which the States are required to supply under Section C should be
       limited to those producers who meet the eligibility criteria under Section B, Definitions.
       This would serve the same purpose as the current exclusion of State and Federally-owned
       hatcheries, in that it would base the allocation of grant funds among the States on feed
       deliveries to eligible producers only.
Doug Caruso                                                                                     3



   3. Section D.5, Providing Assistance, specifies an $80,000 per person payment limitation
      for AGP funds. However, it does not address instances where multi-person partnerships
      or joint ventures applying for grant funds may have recently changed from sole
      proprietorships or taken on additional partners. We believe the wording of the MOA
      should be clarified to ensure that the payment limitation applied to each applicant is
      based on its business structure as it existed during CY 2008.

   4. Section D.3.b, Providing Assistance, should specify how “losses” are to be defined. We
      are concerned that States could interpret this in different ways, leading to possible
      inequities in producer payments. For instance, one State could limit payments to
      producers who operated at an actual loss during CY 2008; other States might apply this
      definition to any producer whose profits were reduced by high feed costs during that
      year.

   5. Section F.14, Terms of This Agreement, should specify timeframes for States to submit
      their internal reviews. The same would apply to single audits in cases where those are
      required to be performed.

   6. The MOA should incorporate a record retention policy for both State agriculture agencies
      and aquaculture producers receiving payments. Such a provision would ensure that
      records are available for any FSA or other reviews as provided for under Section F.16,
      Terms of This Agreement.

Please provide a written response to this letter within 5 days, outlining your proposed actions. If
you have any questions, please contact me at 720-6945, or have a member of your staff contact
Ernest M. Hayashi, Director, Farm and Foreign Agricultural Division, at 720-2887.
